DARWYN P. FAIR & ASSOCIATES
Attorney at Law
535 Griswold, Suite 111-554
Detroit, Michigan 48226
(3 13) 967-0595
(313)731-0585 Fax
(313) 407-6631 Direct Line
dpfair@dpfairlaw.com

June 19, 2021
Supreme Court of The United States
Clerk's Office
1 First Street NE
Washington, DC 20543-0002

Re:

Mati Leeal, et al vs. Ditech Financila, LLC, et al
6th Circuit Case No. 20-1639
Federal District Court Case No. 2-17-cv-10645

Dear Clerk:
Enclosed please find 40 copies of the Petitioners' Petition for Writ of Certiorari for the
above-mentioned matter along with the $300 filing fee, Certificate of Compliance and
Certificate of Service. If you have any questions, please contact me at 313-967-0595.

Very truly yours,

Darwyn P. Fair & Associates

~&.:.Danvyn P. Fair
Enclosures

cc:

Amy Sabbota Gottlieb, Esq.
Nathan H. Blaske, Esq.
MMLeeal

No. _ _ __
6th Circuit
20-1639
IN THE
Supreme Court ofthe United States
MATILEEALand
MALKA LEEAL,
PETITIONERS,
V.

DITECH FINANCIAL, LLC,
F/K/A GREEN TREE SERVICING, LLC,
RESPONDENT.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITEDSTATESCOURTOFAPPEALS
· FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLAINCE AND
CERTIFICATE OF SERVICE

CERTIFICATE OF COMPLIANCE
DAR WYN P. FAIR, an Attorney duly admitted to practice before the Court hereby certifies
that the foregoing brief from Opinions Below through its Conclusion contains 1971 words, as
determined by the word count application of our firm's word processing system.
Dated: June 19, 2021
Respectfully Submitted,
DARWYN P. FAIR & ASSOCIATES, PC

DARWYN P. FAIR (P31266)
Attorney for Petitioners
535 Griswold, Suite 111-554
Detroit, Michigan 48226
(313) 967-0595

CERTIFICATE OF SERVICE
I hereby certify that on the 19th day of June 2021, I served the Petitioners' Application for
Petition For Writ of Certiorari and Certificate of Service to Respondents Attorneys, Amy Sabbota
Gottlieb, 2600 W. Big Beaver Road, Suite 300, Troy, MI 48084, and Attorney Nathan H. Blaske,
255 East Fifth Street, Suite 1900 Cincinnati, OH 45202,

~n,~cm..;.

DARWYNFAIR

